<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







   STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                                  2018

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION
                                 ________

                SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS,
                          AND RELATED PROGRAMS

                    HAROLD ROGERS, Kentucky, Chairman

  KAY GRANGER, Texas                     NITA M. LOWEY, New York
  MARIO DIAZ-BALART, Florida             BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania          C.A. DUTCH RUPPERSBERGER, Maryland
  THOMAS J. ROONEY, Florida              GRACE MENG, New York
  JEFF FORTENBERRY, Nebraska             DAVID E. PRICE, North Carolina
  CHRIS STEWART, Utah

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
    full committee, and Mrs. Lowey, as ranking minority member of the full  
    committee, are authorized to sit as members of all subcommittees.

                Craig Higgins, Susan Adams, Winnie Chang,
                   David Bortnick,  and Clelia Alvarado
                            Subcommittee Staff

                                 _________

                                  PART 3


                                                                   Page
Members' Day Hearing...........................................       1
Written Testimony from Members of Congress.....................     103
Written Testimony from Outside Witnesses.......................     151



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 _________

          Printed for the use of the Committee on Appropriations
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-731                         WASHINGTON : 2018 
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                        COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\                 NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                 MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                          PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                   JOSE E. SERRANO, New York       
  JOHN ABNEY CULBERSON, Texas                 ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                       DAVID E. PRICE, North Carolina
  KEN CALVERT, California                     LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                          SANFORD D. BISHOP, Jr., Georgia     
  MARIO DIAZ-BALART, Florida                  BARBARA LEE, California 
  CHARLES W. DENT, Pennsylvania               BETTY McCOLLUM, Minnesota         
  TOM GRAVES, Georgia                         TIM RYAN, Ohio              
  KEVIN YODER, Kansas                         C.A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                      DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska                  HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                   CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee           MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington           DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                        MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California                GRACE MENG, New York
  ANDY HARRIS, Maryland                       MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                        KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                       PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  \1\>Chairman Emeritus

                   Nancy Fox, Clerk and Staff Director

                                   (ii)
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   

 
STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2018

                              ----------                     

                                          Thursday, March 16, 2017.

                              MEMBERS' DAY

                  Opening Statement of Chairman Rogers

    Mr. Rogers. Good morning and welcome. The hearing will come 
to order. The U.S. has a vital role to play in advancing 
democracy, protecting the innocent, helping the displaced and 
vulnerable, and offering diplomatic solutions to crises, 
unrest, and other challenges abroad. For example, to protect 
our national interests, we need an aggressive plan to fight 
ISIS, which requires a comprehensive approach, including not 
just military engagement, but also the full and responsible use 
of all diplomatic tools at our disposal.
    Today's release by the administration of a so-called 
``skinny budget,'' as we all know, under the Constitution, when 
it comes to appropriations, the President proposes but the 
Congress disposes. Once the full budget picture emerges in the 
weeks ahead, I look forward to working with Secretary 
Tillerson, Mrs. Lowey, and other members of the House to ensure 
that the necessary resources are available to fulfill these 
goals.
    In regard to the so-called ``skinny budget,'' there is an 
old saying: This, too, shall pass.
    To that end, with the encouragement of the Full Committee 
Chairman, we are holding this hearing, so we may hear directly 
from our colleagues and learn about their priorities for this 
subcommittee. The committee has an electronic system for 
collecting all fiscal year 2018 requests. That system opened on 
March 1st and the deadline for this subcommittee is March 30.
    But today, we are pleased to be joined by around a dozen 
members who are making their requests in person. The 
involvement of all members is valued and will aid the 
subcommittee in preparing the 2018 bill and report.
    We really appreciate everyone who is here today and look 
forward to the testimony that is to come.
    First let me recognize Mrs. Lowey, my working partner.

                     Opening Remarks of Mrs. Lowey

    Mrs. Lowey. Well, I want to thank our distinguished chair.
    I want to join Chairman Rogers in welcoming our 
distinguished colleagues today. I am pleased that the chairman 
is holding this hearing and that you have all taken time away 
from your very busy schedules to be here and discuss the state 
and foreign operations budget for fiscal year 2018.
    I believe in--and I know our chair is committed to--
diplomacy and development efforts. They are critical to 
maintain U.S. global leadership, protect our national security, 
and promote economic growth.
    Former President Bush's comments, which I have quoted many 
times, are as true as ever: Defense, diplomacy, and development 
are equal legs on the stool of American foreign policy.
    Yet, dramatic reductions in the President's proposed budget 
for the function 150 account would undermine that delicate 
balance with damaging impacts from deep, ill-advised cuts. If 
we pursue this path, we will gravely undermine our foreign 
policy goals and national security.
    Therefore, it is now more important than ever to draw 
attention to the programs you are here to discuss. I look 
forward to hearing from our distinguished colleagues about 
their priorities in the state and foreign operations budget.
    Thank you.
    Mr. Rogers. I thank the gentlelady.
    Without objection, the full written statements of all 
members will be included in the record.
    In order to keep to our schedule, we hope that you can 
limit your testimony to no more than 5 minutes.
    Mr. Griffith is recognized.
                              ----------                              --
--------

                                          Thursday, March 16, 2017.

                                WITNESS

HON. H. MORGAN GRIFFITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA

                   Opening Statement of Mr. Griffith

    Mr. Griffith. Thank you very much, Chairman Rogers and 
Ranking Member Lowey. I do appreciate it.
    I am here today to talk about the Green Climate Fund. As 
you know, that was first announced at the 2009 Copenhagen 
Climate Conference and then set up later with the headquarters 
in South Korea by the United Nations Framework Convention on 
Climate Change.
    In terms of funding, the Copenhagen Accord stated that the 
fund would have ``a goal of mobilizing jointly 100 billion U.S. 
dollars a year by 2020 to address the needs of developing 
countries.'' The Green Climate Fund's executive director stated 
in 2015, however, that the estimated funding needed by 
developing countries would increase to $450 billion by 2020. 
And the United Nations' top climate change official described 
the current goal of $100 billion as ``peanuts'' and envisions 
trillions of dollars in spending over the next 15 years.
    Congress has never authorized nor appropriated funding for 
the Green Climate Fund. Yet, on November 15, 2014 President 
Obama pledged an initial $3 billion from the United States 
during meetings of the G-20. In fact, just 3 days before 
President Trump's inauguration President Obama's State 
Department cut a check for $500 million as the second of two 
payments towards the Green Climate Fund.
    This funding was drawn from the fiscal year 2016 Economic 
Support Fund appropriation, which was also the source of the 
first $500 million payment in 2016. The payments are completely 
counter to congressional intent and direction in the 
appropriation process.
    The United States Government already supports significant 
climate change-related spending, including technical and 
financial assistance for climate change activities in the 
developing world through a variety of bilateral and 
multilateral programs. We cannot continue to fund yet another 
climate finance program. Congress must instead address the most 
pressing priorities for the American people amidst serious 
fiscal constraints.
    In 2015, I led a letter, with 110 members signing on, 
opposing funding for President Obama's initial request for the 
Green Climate Fund and following up with this Committee to 
reiterate this request for fiscal year 2017. The fiscal year 
2016 enacted appropriations legislation did not provide funding 
for the Green Climate Fund, despite President Obama's request. 
However, neither the fiscal year 2016 appropriations bills nor 
the fiscal year 2017 continuing resolutions contained a rider 
prohibiting funds being used for the Green Climate Fund, 
leaving an opening for the President to shift funding from the 
Economic Support Fund appropriation.
    I am appreciative of last year's fiscal year 2017 House 
Appropriations Committee-passed State and Foreign 
Appropriations bill did contain the rider language as follows: 
``Green Climate Fund prohibition. None of the funds 
appropriated or otherwise made available by this Act or prior 
Acts making appropriations for the Department of State, foreign 
operations, and related programs may be made available as a 
contribution, grant, or any other payment to the Green Climate 
Fund.''
    On the contrary, however, the fiscal year 2017 Senate 
Appropriations Committee-passed State and Foreign Operations 
Appropriations bill would have actually appropriated $263 
million for the Green Climate Fund. President Trump's budget 
blueprint for fiscal year 2018, released this morning, does 
eliminate U.S. funding related to the Green Climate Fund and 
its two precursor climate investment funds.
    I ask this Subcommittee and the full Appropriations 
Committee to reflect the will of the House and the President 
not only by providing no funds for the Green Climate Fund, but 
also including language to specifically prohibit any 
appropriated funds from being used for such payments. While I 
am encouraged the President does not plan to make these 
payments particularly by circumventing the will of Congress and 
without specific appropriation, I believe it is important that 
Congress make this point clear.
    I thank you all again for the opportunity to be here today 
and to present this to you all live, and appreciate you all 
taking your time to hear those of us that do wish to do a live 
presentation.
    And with that, I yield back.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Rogers. Thank you, Mr. Griffith. Well presented.
    Mr. Griffith. I appreciate that. Thank you very much. I 
hope you all have a good day. Thank you.
    Mr. Rogers. Mrs. Lowey--would you like to ask a question?
    Mrs. Lowey. No, that is fine. Thank you.
    Mr. Rogers. Questions?
    Mrs. Lowey. I shouldn't say that is fine because I disagree 
with the gentleman--I respectfully disagree with the gentleman, 
but I do want to move the hearing along.
    Mr. Rogers. Yes, ma'am. Thank you.
    Mr. McGovern, welcome.
                              ----------                              --
--------

                                          Thursday, March 16, 2017.

                                WITNESS

HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS

                   Opening Statement of Mr. McGovern

    Mr. McGovern. Thank you very much. And thank you, Chairman 
Rogers and Ranking Member Lowey, Mr. Fortenberry. I am happy to 
be here. It is kind of like the Rules Committee, all these 
members of Congress testifying. How lucky can you get?
    But I appreciate the opportunity to testify on priorities 
for fiscal year 2018. Look, nobody understands better than you 
that the programs under your jurisdiction are central to our 
national security and address critical and often urgent needs 
around the world. I know that I am preaching to the choir when 
I strongly encourage the Committee to talk to their Budget 
Committee colleagues and to fight for robust funding for the 
150 account in the fiscal year 2018 budget resolution.
    I also want to express my support for all your efforts to 
move forward a final version of the fiscal year 2017 State and 
Foreign Operations Appropriations bill. Too much thoughtful 
care and hard work have gone into the House and Senate versions 
of that bill to abandon it now to a CR.
    Mr. Chairman, there is a long history of bipartisan support 
for America's global health, food security, humanitarian, and 
development programs. They promote U.S. interests, save lives, 
improve livelihoods, and advance the very best American values 
and ideals.
    And today I want to add my voice in support of our global 
food security and nutrition programs. I ask the Committee to 
support, at a minimum, funding levels that match or exceed the 
fiscal year 2017 appropriations provided for Feed the Future 
and for nutrition programs, especially the nutrition sub-
account under the Global Health Programs account in USAID.
    I strongly believe that maintaining and expanding a U.S. 
commitment to global food security, agricultural development, 
and child nutrition must be high on the list of competing 
priorities. These programs are central to helping people and 
nations become more economically productive and prosperous. 
They are an investment in helping nations free themselves from 
dependency on international donor assistance.
    But to be successful they require a long-term commitment. I 
am disappointed by the continued flat funding of the nutrition 
sub-account under the Global Health Program. Funding for 
nutrition sub-account needs to increase in fiscal year 2018 and 
in fiscal year 2017, if that is still possible, in order not to 
reduce the scope of its work and the number of beneficiaries 
reached.
    Mr. Chairman and Ranking Member, Colombia, one of America's 
strongest and most important allies in the hemisphere, is in 
the midst of profound historic change. With over 50 years of 
conflict, nearly 5 million internally displaced people, 
hundreds of thousands of victims of unspeakable violence, and 
generations growing up knowing only war, the Colombian 
government has signed peace accords to bring armed conflict 
with the FARC guerillas to an end.
    While homicides and conflict are at their lowest levels in 
decades, the human rights situation remains perilous. Human 
rights defenders and local social leaders--the very human 
capital Colombia needs to consolidate peace and promote lasting 
reconciliation--are being targeted and murdered in increasing 
numbers. It is urgent that the committee signals America's 
unwavering support for Colombia and maintains strong and 
unequivocal funding to implement the peace agreement.
    For both fiscal year 2018 and the pending fiscal year 2017 
bill I urge the Committee to be generous to Colombia to the 
maximum extent possible, placing the priority of advancing 
peace, development, human rights, reconciliation, and the rule 
of law. Congress should not, however, seek to impose conditions 
that undermine or are directly contrary to provisions of the 
signed accords.
    One issue I want to highlight in particular is the need to 
specifically designate $21 million in the fiscal year 2017 
under the nonproliferation, antiterrorism, and demining account 
for demining in Colombia, and if that isn't possible, to make 
up the shortfall in fiscal year 2018. After Afghanistan, 
Colombia has the second-highest number of anti-personnel 
landmine casualties in the world.
    Norway, Colombia, and the U.S. are providing significant 
funding for expanded demining effort so that all Colombians may 
one day walk their land without fear of losing their lives and 
limbs to this indiscriminate weapon. It is urgent that these 
pledged funds of $21 million be provided as quickly as 
possible.
    Finally, I ask the Committee to maintain robust funding for 
Central America. This is vital to U.S. national security.
    There should be no doubt that the United States remains 
committed to helping our allies in the Northern Triangle 
address the violence and lack of opportunity that plague the 
region and which drive so many families and young people to 
abandon their homes and flee.
    Mr. Chairman and ranking member, at the end of January, I 
was in El Salvador. I joined an effort by Salvadoran and 
Salvadoran-American families to establish a national commission 
to account for the thousands of disappeared still missing from 
the civil war. The Salvadoran government agreed and is now 
getting input on the framework of such a commission.
    I respectfully ask the Committee to provide $200,000-
$300,000 from existing ESF funding in fiscal year 2017, if that 
is still possible, or in the fiscal year 2018 to support this 
humanitarian initiative.
    I thank you very much for all your great work. And again, I 
believe that the work that is done in this Committee is 
essential for our national security all around the world, and I 
thank you and your staff for all your efforts.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
        
    Mr. Rogers. Thank you very much for the good statement--it 
is--you are on target--we are hoping, praying even, that when 
the Senate gets our defense approps bill to be passed on the 
floor that they will consider attaching to that bill the 
balance of the other bills we have passed through committee. 
Six, I think, have been on the floor. Then send that back to 
the House, so that we can get 2017 behind us even as we are 
embarking on 2018 hearings and process.
    General Mattis, Mad Dog, says that if we slash State 
Department funding he is going to have to order a lot more 
ammunition.
    Mr. McGovern. Right.
    Mrs. Lowey. Right.
    Mr. Rogers. And over 100 retired admirals and generals have 
said essentially the same thing.
    I am absolutely shocked at the administration's puny 
request for this worldwide effort to defeat ISIS--maybe not 
necessarily on the battlefield as much as in soft warfare, if 
you will. I share your frustration with the so-called skinny 
budget.
    Mr. McGovern. Well, and as you know, I didn't comment 
directly on the budget because I am confident that you are 
going to make sure that it is dead on arrival, so that is why. 
[Laughter.]
    I trust the bipartisan leadership on this Committee.
    Mr. Rogers. Mrs. Lowey.
    Mrs. Lowey. First of all, I want to say I completely agree. 
I completely agree with the chair.
    The budget was shocking, disappointing. I can think of many 
other adjectives, but I just want to use my minute to thank you 
for your lifelong commitment, your knowledge. You have visited 
these areas of the world, especially South America, Latin 
America, and you have shown by actions your great knowledge.
    I, frankly, am in awe of the work you have done, and so 
appreciative. And I know the chair and I want to continue to 
work with you as we turn this budget upside down. So thank you 
so much for being here today and thank you for your work and 
commitment.
    Mr. Rogers. Questions? Comments?
    Thank you, sir.
    Mr. McGovern. Thank you. Welcome bipartisian back. We are 
sitting bipartisianly, right?
    Mrs. Lowey. Thank you. [Laughter.]
    Mr. Rogers. We are glad to have the gentleman from Florida, 
Mr. Yoho, recognized for 5 minutes.
                              ----------                              --
--------

                                          Thursday, March 16, 2017.

                                WITNESS

HON. TED S. YOHO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA

                     Opening Statement of Mr. Yoho

    Mr. Yoho. Thank you.
    Chairman Rogers, Ranking Member Lowey, and members of the 
committee, thank you all for convening this hearing today. I 
submitted my full testimony for the record but I wanted to talk 
to you about some important aspects.
    And I am a guy that came up here to get rid of foreign aid. 
You know, I ran on that. We were going to get rid of it. In my 
4 years here I have become much more learned, and that is what 
I wanted to talk to you about today.
    Today America is confronting unprecedented instability and 
growing humanitarian crises around the world. Completely 
slashing the 150 account will not address our debt crisis; it 
will only hinder America's foreign trade, security, and 
potentially increase the likelihood of future troubles--trouble 
spots popping up that could require even more U.S. involvement.
    Like many, I am skeptical of how U.S. taxpayer dollars are 
spent overseas. I heard countless stories of America's 
generosity funding wasteful projects and enriching corrupt 
foreign bureaucrats at the expense of the U.S. taxpayers. I 
believe U.S.--up to scrutiny.
    As a member of the U.S. House Foreign Affairs Committee and 
the chairman of the Asia Pacific Subcommittee I have developed 
a deeper understanding of how strategic investments in 
development can be an important tool in maintaining America 
leadership while creating strong allies and providing great 
economic opportunities for America's businesses here and at 
home.
    The President has proposed cuts of 28 percent to State 
Department and USAID and a 35 percent cut to Treasury and 
International programs. These proposed cuts certainly make a 
robust reform agenda for foreign assistance necessary.
    However, I believe strongly that we cannot balance the 
federal budget on discretionary spending alone. If we are to 
control our debt we must be willing to tackle and take on our 
unsustainable mandatory spending.
    Ninety-five percent of the world's customers live outside 
of our borders. The global economic leadership and foreign 
assistance that the U.S. generates significant returns on 
invest at home. Strategic investments in diplomacy and 
development help to build and open up new markets by promoting 
rule of law, fighting corruption, and strengthening local 
institutions, and creating investments in export opportunities 
for American businesses.
    To this point, 11 of America's top 15 export markets have 
been recipients of U.S. foreign assistance. This investment in 
foreign aid, when it is targeted and managed correctly, can 
yield great returns and can help increase trade that is vital 
not only to my State of Florida, where it supports over 2.5 
million jobs, but to the entire United States.
    The small but cost-effective investments we make in the 
international affairs budget help advance U.S. national 
security interests at home and abroad and spur American 
economic job growth. For example, U.S. foreign assistance 
helped move South Korea from an economic collapse after the 
Korean War to our sixth-largest trading partner and a key ally 
today. The $40 billion we now get back every year in trade in 
South Korea is more than what we provided in foreign assistance 
to that country over 5 decades.
    My goal for U.S. aid is to achieve a level of effectiveness 
that every time we provide aid to a region or country it is 
with the final aim of transitioning them from trade to aid, 
like we have done in South Korea. I am proud that there is a 
legacy of strong bipartisan support in Congress for the 
international affairs budget and the program it funds, 
including PEPFAR, the Millennium Challenge Corporation, OPIC, 
USTDA, and Power Africa.
    The State Department and U.S. development agencies work 
around the country and the world to advance American economic 
interests by promoting exports that today make up almost 13 
percent of America's $18 trillion economy and support about one 
in five American jobs. The U.S. Trade and Development Agency, 
for instance, generates $85 in exports of U.S.-manufactured 
good and service for every $1 programmed for priority 
development projects in the emerging markets. The agency's 
programs have generated over $56 billion in U.S. exports, 
supporting an estimated 300,000 U.S. jobs, since USTDA was 
established in 1992.
    More astounding, OPIC--which is an amazing corporation--
which has generated $80 billion in U.S. exports, has supported 
more than 280,000 jobs since its creation. In Florida alone, 
OPIC currently supports over 2,200 jobs. OPIC's portfolio has a 
write-off rate of less than 1 percent and 38 consecutive years 
of Federal deficit reduction, including more than $2.6 billion 
returned to the U.S. treasury since 2008.
    At a time when American leadership is needed more than 
ever, we must continue to invest in the international affairs 
budget. As such, I ask that you support for a strong 302(b) 
allocation in fiscal year 2018 that is close to the levels 
approved in the fiscal year 2017 continuing resolution.
    This will allow for needed reforms in our international aid 
programs while not sacrificing our security or economy for 
splashy headlines that say we are cutting American foreign aid, 
which will ultimately do nothing to address our current debt 
crisis, and creating yet another vacuum by the lack of American 
leadership to be filled most likely by a foe to our country and 
ideals.
    And I thank you.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
       
    Mr. Rogers. Thank you.
    We spend less than 1 percent on State and foreign aid, and 
it is more or less like a fly on the back of the elephant, 
which is defense.
    Mr. Yoho. And he doesn't know it is there.
    Mr. Rogers. And he doesn't know it is there. That is right.
    And as you say, if you erased every penny we spent on 
discretionary spending, you erased everything--National Park 
Service, agriculture, whatever--you would still be in the red, 
because we are not the problem. Discretionary is not the 
problem, as you well know. It is mandatory spending, which is 
just taking us over and will soon have us all.
    Mr. Yoho. Mr. Chairman, if I may interject, if you look at 
Electrify Africa and you look at this country back in the early 
1900s, if it was not for the investment in the rural coops we 
would not have electricity. Electrify Africa is bringing power 
to the African people, and when you empower the people the 
people will change the government the way they need to.
    And that is why, you know, if we invest in those things it 
will help the people of that country. Those people will help 
change those countries to where they become trading partners of 
ours and we will have to--we will be able to back off of some 
of the stuff we are spending a lot of money on, trying to prop 
up governments by empowering the people.
    Mr. Rogers. We hear you.
    Mrs. Lowey.
    Mrs. Lowey. You have heard the expression ``shock and 
awe.'' I cannot tell you how delighted I am because we haven't 
had a chance to really interact, and I think, frankly, the 
chair--our distinguished chair--could deputize you to speak to 
some parts of the caucus of which you are a part, because your 
statement is so very critical.
    You should give this speech on television, because in all 
sincerity, your statement was eloquent, so very important, and 
I think there are too many people who don't take the time to 
talk about the importance of this account back home.
    And I understand everyone has to win their election, but 
you expressed my view and the view of many of us on this 
committee so eloquently, and I wanted to personally thank you.
    Mr. Yoho. Thank you. And, when I took some of those votes, 
like Electrify Africa, we had a lot of conservatives got mad at 
me.
    But when you explain why we do this, we can cut foreign aid 
and that vacuum is going to be filled and it will be harder for 
us to continue what we do in our own country. So when you 
explain to them that, yes, I want to get away from foreign aid; 
I want to go to aid, not--I want to go to trade, not aid. And 
if we go to that we will be like Korea and have examples of 
that all over the world, where they become large trading 
partners of ours----
    Mrs. Lowey. Whatever parts of the budget you want to talk 
about to your colleagues----
    Mr. Yoho. Yes, ma'am.
    Mrs. Lowey [continuing]. Is fine, but I do hope that you 
can build support, and it is a pleasure to have you testify 
today.
    Mr. Yoho. Thank you, ma'am.
    Mr. Rogers. Questions?
    Mr. Fortenberry.
    Mr. Fortenberry. I almost jumped up and applauded, as 
well--well said, as well as the previous member, Mr. McGovern. 
And I think this growing sensitivity about the importance of 
foreign aid, foreign investment, and the reasons that we do 
it--they are three-fold: humanitarian benefit, economically 
hopefully, and the military tells us, ``Send us in last. Do 
whatever you can to build up good will and friendship and 
trust.''
    Mr. Yoho. I have got a mentor across the aisle here.
    Mr. Fortenberry. Thank you.
    Mr. Rogers. Questions?
    Thank you, Mr. Yoho.
    Mr. Yoho. Thank you all.
    Mr. Rogers. Now we are blessed with the presence of the 
ranking member of the House Foreign Affairs Committee, Mr. 
Engel.
                              ----------                              --
------

                                          Thursday, March 16, 2017.

                                WITNESS

HON. ELIOT L. ENGEL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK

                     Opening Statement of Mr. Engel

    Mr. Engel. Thank you, Mr. Chairman.
    Before Mr. Yoho leaves I want to also say on the Foreign 
Affairs Committee Chairman Royce and I work very closely 
together. We pride ourselves in saying we are the most 
bipartisan Committee in the Congress. And I think you just 
heard one of the reasons why, when we have our members who work 
closely together on both sides of the aisle travel and have a 
good knowledge of the budget and what it does. It makes us all 
proud, and I told Ted that--I have traveled with him many 
times, and I am very proud, just--I didn't hear his whole 
speech, but what I heard it is very proud of.
    I also want to say I have been in this Congress 29 years. I 
never knew this room existed. All these little hiding places, 
it is wonderful. Just terrific. So it is worth it to be on the 
Appropriations Committee.
    Mrs. Lowey. It is reserved for the Chair.
    Mr. Rogers. We look at the Foreign Affairs hearing room and 
marvel--we are down in the bowels of government knocking on the 
pipes----
    Mr. Engel. Well, Mrs. Lowey and I have adjoining districts 
and we have both served in Congress the exact same time. This 
is our 29th year, and we have always had adjoining districts.
    Mrs. Lowey. I started when I was 10.
    Mr. Engel. Right.
    And I was five-and-a-half, so.
    But, Mr. Chairman, thank you.
    And thank you, Ranking Member Lowey, and all the members of 
the Subcommittee. I am very grateful for the opportunity to 
talk about the need for continued strong investment in American 
security through our international affairs budget.
    Congress, as we all say many times, is a co-equal branch of 
government and, according to the Constitution, we appropriate 
funds or you appropriate funds--we just don't have to roll over 
because any White House says so.
    This year we are going to have to put that idea to the 
test.
    This morning we learned that the White House wants to cut 
nearly one-third of the international affairs budget next year. 
That obviously would be a disaster. In fact, slashing our 
international engagement by even a fraction of that at a time 
when we are facing serious challenges around the world would be 
an absolute disaster.
    What is worse, we know from earlier reporting that the 
administration wants to cut even more. Senior State Department 
officials have told me that rather than getting there in one 
stroke they want instead to put the department on a glide path 
to achieving greater reductions.
    The way I see it, whether you nosedive into the side of a 
mountain or you are on a glide path into the side of a 
mountain, you still end up on the side of a mountain. And that 
is why more than 100 of our colleagues joined me in making the 
case to Secretary Tillerson that such cuts would be a 
catastrophic mistake.
    I ask that this letter be included as part of the record. 
It is the same case I am making here this morning.
    I also spoke with Secretary Tillerson on the phone last 
week and voiced my objections, although we didn't know 
specifically how bad these cuts would be.
    The world can be a dangerous place, and there will be times 
when the only option for keeping America safe is the use of 
military force. We have the greatest military in the world, and 
I have always supported a strong national defense, even when 
people threaten me for doing so.
    The men and women who wear our uniform put their lives on 
the line to protect our country, so we owe it to them to 
exhaust every possible option before we send them into harm's 
way. By cutting support for American diplomacy and development 
we are betraying that commitment. If we don't give these 
efforts their due, we are not exhausting every option and 
instead unnecessarily putting our troops at risk.
    Because what the State Department does, what USAID and MCC 
and the Peace Corps does, and what our funding for the United 
Nations supports, we are stopping crises before they start.
    And, Mr. Chairman, I brought with me a letter from the AJC 
underscoring the need for continued American engagement with 
the U.N., and I ask that it be included in the record.
    Diplomats work out disagreements across a conference table 
or in quiet corners so they don't need to be resolved on the 
battlefield with bombs and bullets. Diplomacy makes old 
friendships stronger and builds new bridges to connect with new 
partners.
    Development efforts aren't charity. They are investments in 
countries and communities to help them become more stable, 
healthy, and prosperous.
    Poverty creates hotbeds for violence, crime, and 
corruption, and those problems inevitably spill over into 
neighboring countries. Development assistance, on the other 
hand, builds stronger partners on the world stage, partners who 
will share our values and priorities.
    As you said before, Mr. Chairman, this kind of aid is less 
than 1 percent of the total budget. I know the consensus is 
that it is a whole bunch more, but it is less than 1 percent.
    What is more, that means these efforts cost pennies on the 
dollar compared to military engagement.
    Look at the Peace Corps. It is staffed by volunteers who 
they have paid dollars a day but work full time to project 
American leadership and improve our relationships in some of 
the most challenging places in the world. That is a pretty good 
bang for our buck.
    So if we slash investment in diplomacy and development we 
are telling our servicemembers and the American people, ``We 
will take our chances down the road, even if that may mean a 
much steeper cost in terms of American blood and American 
treasure.''
    When time comes, what will we say to constituents who want 
to know, ``Could you have done more? Did you have a chance to 
put out this fire before it burned out of control?''
    What will we say to mothers and fathers who ask, ``Did my 
son or daughter really have to make the ultimate sacrifice, or 
could we have stopped the crisis before it started so that my 
child could have come home?''
    There is another cost. If the United States draws back from 
the world stage, what signal does that send? What does it say 
to countries that look to our values and our leadership?
    What does it say to other big powers, maybe those that 
don't share our values or our interests--think of a country 
beginning with an R--when they see the void we have left 
behind?
    History has shown us what we can get by retreating into a 
defensive, isolationist crouch. If we aren't carrying the 
mantle of global leadership, make no mistake, someone else will 
pick it up and we may not like what we see.
    Don't want Russia picking it up. Don't want China picking 
it up. Don't want any of these countries that don't share our 
values picking it up, and they will if we retreat.
    The American people don't want to see that happen to our 
country. In fact, recent data shows that 72 percent of 
Americans believe our country should play a leading global 
role. Nearly six in 10 believe funding levels at the State 
Department should stay the same or increase.
    AS for military experts, here is a letter signed by more 
than 120 retired generals and admirals. They write, quote, ``We 
urge you to ensure that resources for the international affairs 
budget keep pace with the growing global threats and 
opportunities we face. Now is not the time to retreat,'' 
unquote.
    I ask that this letter be included in the record in its 
entirety.
    Secretary of Defense Mattis himself said in 2013, and I 
quote him, ``If you don't fund the State Department fully then 
I need to buy more ammunition ultimately.''
    So I think it is a cost-benefit ratio. The more that we put 
into the State Department's diplomacy, hopefully the less we 
have to put into a military budget as we deal with the outcome 
of an apparent American withdrawal from the international 
scene.
    Mr. Chairman, Ranking Member Lowey, I feel that following 
the administration's path forward for our international affairs 
budget is the equivalent of retreat.
    It is a retreat from our role as a global leader. It is a 
retreat from our alliances and our careful diplomatic efforts 
to curb proliferation, human rights abuses, and climate change. 
It is a retreat from the lifesaving work we do all over the 
world, whether it is fighting HIV/AIDS, combatting 
tuberculosis, or battling modern slavery. And it is a retreat 
from our solemn commitment that military force must always 
remain a measure of last resort, not first.
    Mr. Chairman, let me close with this question to think 
about: If you were an American diplomat or a development expert 
or a Peace Corps volunteer and you woke up this morning and 
heard the news, what would you think? How would you react to 
learning that your government only wants to pay seven cents on 
the dollar for your service and sacrifice for your country?
    What would you think if you were an American ally relying 
on our continued leadership in the world promoting freedom and 
democracy and the rule of law?
    I fear that this budget request is sending a chilling 
shockwave across the globe, and that shockwave will come back 
on us. The diseases we don't prevent will reach our shores. The 
conflicts we don't help resolve will grow into the wars we need 
to fight. The places where we fail to plant the seeds of 
friendship today may tomorrow become fertile ground for 
violence and hatred toward America.
    Mr. Chairman, Ranking Member Lowey, you are both in a 
unique position to do something about it to guarantee America's 
role in the world going forward. I encourage this Committee to 
support a strong international affairs budget, and I am again 
grateful for the time today.
    I yield back.
    Mr. Rogers. Well, thank you, Mr. Engel, for your testimony.
    Without objection, the committee will include the 
gentleman's letters in the record.
    [The statement follows and additional information is on 
pages 78-101:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Engel. Thank you.
    Mr. Rogers. Thank you very much.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Rogers. Questions?
    Mr. Engel. Thank you, Madam.
    Mrs. Lowey. Thank you very much. We appreciate your 
eloquent statement.
    Mr. Rogers. Now we recognize the gentleman from Texas, Mr. 
Babin.
                              ----------                              
                              
                                          Thursday, March 16, 2017.

                                WITNESS

HON. BRIAN BABIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS

                     Opening Statement of Mr. Babin

    Mr. Babin. Thank you. Thank you very much. This really is a 
beautiful little room, which I have never been in, as well. 
Great view out there.
    Mr. Stewart. Are you looking at me? [Laughter.]
    Mr. Babin. I was actually looking past you, Chris. I am 
sorry, but looking at the monument.
    Thank you, Mr. Chairman, Chairman Rogers, and Ranking 
Member Lowey, and members of the State and Foreign Operations 
Appropriations Subcommittee. Thank you for allowing me to come 
address you this morning.
    At this critical time in our nation I believe it is very 
important that Congress does everything within its power to 
support the President and his administration's efforts to 
strengthen our national security. He has taken strong and 
important steps to put the safety and security of the American 
people first, and I hope that this subcommittee will build on 
those efforts.
    I would encourage the committee to provide funding for no 
more than 50,000 refugees in fiscal year 2018. This is 
consistent with the President's executive order on protecting 
the nation from foreign terrorist entry into the United States.
    And as much as it is in the purview of the Subcommittee, I 
ask that sufficient money be provided to improve screening, 
vetting protocols, and procedures associated with the U.S. 
Refugee Admission Program (USRAP). There are a number of 
troubling aspects about our current refugee admission program.
    Among them is the glaring under-representation of religious 
minorities--Christians in particular--being admitted from the 
Middle East through our nation's refugee program. As they are 
currently performed, refugee admissions to the United States 
largely come from those being served in refugee camps run and 
administered by the U.N. High Commissioner for Refugees.
    As they are currently performed, refugee admissions to the 
United States largely come from those being served in refugee 
camps run and administered by the United Nations High 
Commissioner for Refugees (UNHCR). Many reports have 
demonstrated that Christians simply do not feel safe in UNHCR 
refugee camps.
    There are fears among Christians that they will face 
terrible persecution, rape, extortion, exploitation, and even 
murder and death. These are very real and legitimate fears. 
Given this fact, it is little wonder that among the refugees 
entering the U.S. through this U.N.-run program there are very 
few Christians.
    There is a way around this for some refugees, but the 
Obama--the former Obama administration failed to utilize this 
priority 2, or P-2 refugee recognition process.
    Given these shortcomings, I believe it is necessary that we 
consider other avenues by which we can ensure that persecuted 
Christians can gain access to the refugee programs to address 
the discriminatory nature that currently characterizes the 
admission of refugees from the Middle East region in 
particular. Specifically, I ask that the Committee consider 
language that would direct embassies to work closely with and 
consider prioritizing referrals from nongovernmental 
organizations, or NGOs, that are working with persecuted 
Christians and other religious minorities in the Middle Eastern 
region.
    This might help address the glaring underrepresentation of 
Christian refugees from Syria, where less than 0.5 percent have 
been Christian in the last year, and in the Middle East in 
general, and enable these extremely persecuted refugees to 
access the U.S. Refugee Admissions Program through an 
alternative route. Embassies are already permitted to make 
referrals to the USRAP, but my understanding is that this 
channel is very rarely used. We should encourage U.S. embassies 
to collaborate with these NGOs working in disaster-or war-torn 
areas abroad to accept for review nongovernmental organization 
refugee recommendations so that religious minorities are not 
excluded due to discriminatory practices within these U.N. 
camps.
    I want to thank you for your consideration of what I 
consider a very serious issue. Encouragement by this 
subcommittee along the lines that I have suggested may enable 
this subcommittee to have a significant impact on the lives of 
the most persecuted peoples on the face of the Earth.
    I want to thank you for your attention to this issue, and I 
look forward to working with you and your staff to address this 
issue in the fiscal year 2018's State Foreign Operations 
Appropriations Act.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Rogers. Thank you, Mr. Babin. Appreciate your being 
here. Thank you.
    Mr. Babin. Glad to be here. Be glad to answer any question, 
Mr. Chairman.
    Mr. Rogers. Questions?
    Mrs. Lowey. I just want to say, the U.S. has the most 
rigorous refugee screening process, including biometric tracks, 
medical screening, DNA testing. And if your information can be 
supplied to us at the committee, I have never heard that 
religious minorities were excluded.
    And I am happy to look into it, or if you have additional 
information it would be very helpful.
    Mr. Babin. Well, can I interject----
    Mrs. Lowey. Sure.
    Mr. Babin [continuing]. One thing here, Mrs. Lowey?
    Syria, for example: 10 percent of the Syrian population is 
Christian. Less than one-half of 1 percent of the refugees we 
have taken in in the last 12 months under the Obama 
administration have been Christians. Less than one-half of 1 
percent.
    Mrs. Lowey. I certainly respect those numbers, but it may 
be for many other reasons. Maybe the Christians are staying 
there, not leaving.
    So I would certainly--and I know the chair and I would 
welcome that information.
    Mr. Babin. Yes, ma'am.
    Mrs. Lowey. And I thank you.
    Mr. Babin. You bet. Well, I know that there is great fear. 
We have got very good information in our research--very great 
fear by--on the part of Christians to even enter these U.N. 
refugee camps because of discriminatory practices.
    Mr. Rogers. Thank you, Mr. Babin. We appreciate your 
testimony.
    Mrs. Lowey. Thank you.
    Mr. Rogers. We are running short on time.
    Do you have a question?
    Mr. Fortenberry. All I was going to do was say that is a 
noteworthy comment traced back to the reality of certain 
minority populations not being counted as part of the refugee 
population because they are not in the camps. They are 
dispersed into other areas because of fear or other concerns. I 
think it is a reasoned point.
    Thank you for raising that, sir.
    Mr. Babin. Thank you.
    [The information follows:] 
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
                                          Thursday, March 16, 2017.

                                WITNESS

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON

                      Statement of Mr. Blumenauer

    Mr. Blumenauer. Thank you, Mr. Chairman. I will attempt to 
be brief.
    I want to associate myself with the comments that you have 
heard about the need to protect the important programs that you 
have overseen over the years. And I would just focus my 
attention on one area, as I try every year to find my way down 
to this room to talk about what we are doing in the area of 
water and sanitation.
    This subcommittee in the past--I appreciate Mrs. Lowey and 
your predecessor, Ms. Granger, helping us beef up these 
efforts. We still have two-thirds of a billion people around 
the globe that do not have access to safe drinking water. It is 
four times that number that do not have access to adequate 
sanitation.
    It is not just a humanitarian crisis, although those 
illnesses actually pose a threat to broader populations, 
including Americans, but it is also--has geopolitical--water 
insecurity was part of what drove the implosion of civil 
society in Syria. Having the drought in the countryside, not 
having access to water, moving people to the cities created a 
situation.
    We have had the strategic assessment from the Pentagon 
showing that water instability is a threat to our security, 
compromising cross-border conflicts, leading to famine. These 
are areas that this subcommittee has supported a refined effort 
to improve water and sanitation programs.
    And I would just hope that we would be able to think 
strategically about how these modest investments have made a 
difference for millions of lives and strengthening our 
position.
    Most recently I have focused attention on what is happening 
in Gaza, where we are--have almost 2 million people who are 
rapidly approaching a situation where there is no potable 
water, and having disease and not having drinkable water in 
this flashpoint in the Middle East is going to be destabilizing 
for Israel and for the United States.
    There has been some progress that has been made with 
Israelis moving forward in the international organizations, but 
the United States partnership and investment, even though it is 
not great in terms of all the things you look at, has helped 
leverage, has helped bring people to the table, forced 
cooperation, and made amazing progress. It is one of those few 
areas where we actually have broad bipartisan support in 
Congress.
    My partner in the past, the late Henry Hyde, and more 
recently with Ted Poe, we have had support in the Senate. But 
you have been there with some essential funding to help make it 
happen.
    And I just hope the committee, with all the difficult 
things you are facing, will not have sanitation and water kind 
of slip away, because you have made a big impact and it is hard 
to think of any area that would affect more lives more 
profoundly for such a modest investment.
    And I appreciate your courtesy.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Rogers. Thank you for that good testimony. I am 
particularly sensitive to good water issues. I have spent my 
career back home in my district getting water to rural 
communities. When I came to this job I think we had like 35 
percent of people on city water; now it is up to 92 percent. 
When I was growing up in rural, really rural Kentucky, for 
water, our family had a well in the yard, which I didn't 
realize at the time was just pure sulfur water. That is what we 
grew up on.
    So we moved to town when I was 8 or 9 years old, started 
drinking city water, which tasted awful. [Laughter.]
    I had been used to sulfur water.
    Anybody have any questions or comment?
    Mrs. Lowey. Thank you.
    When we see you coming we just say, ``Water, water, 
water.'' [Laughter.]
    Mr. Blumenauer. Thank you very much.
    Mr. Rogers. Thank you very much.
    Your statement will be in the record; if you would like to 
summarize for us we would appreciate it.
    Mr. Foster.
                              ----------                              --
--------

                                          Thursday, March 16, 2017.

                                WITNESS

HON. BILL FOSTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS

                    Opening Statement of Mr. Foster

    Mr. Foster. Thank you, Chairman Rogers and Ranking Member 
Lowey, for having this Members' Day and to all the members of 
the subcommittee for allowing me to testify.
    I would like to thank you both for your advocacy of 
important programs funded through the state and foreign ops 
account. We spend money in a variety of ways to make our 
country safer, and the return on investment from, in national 
security per dollar expended in the State Department I believe 
is higher than many other ways that we spend money.
    And in that light, the proposed 28 percent cut to the State 
Department budget is a step backwards. Far better to look for 
cuts in weapon systems that the Pentagon does not want and 
bases that it wishes closed.
    But I am here for two specific reasons today: first, to 
urge robust funding for the accounts that support the 
International Atomic Energy Agency, the IAEA, which is the 
organization that is tasked with verifying that states comply 
with their commitments under both the nonproliferation treaty 
and other nuclear nonproliferation agreements, such as the Iran 
nuclear deal.
    And secondly, to urge a much smaller but symbolically 
important support for the Synchrotron-light for Experimental 
Science and Application in the Middle East, the so-called 
SESAME project, which is a collaboration of scientists from 
throughout the Middle East, including Israel and including Iran 
and everyone in between, in building a world-class scientific 
facility about an hour drive from Amman and an hour drive from 
Jerusalem.
    It is a unique facility and important to me because of my 
history in high-energy physics, where we have seen very often 
that when politicians and even people can't get along often 
their scientists do, and that scientific facilities like SESAME 
can be an important bridge. It is a facility that has been in 
construction for a long time. It is nearing completion but 
missing a lot of the scientific equipment it needs.
    And so even a symbolic contribution from the U.S. would go 
a long way towards encouraging the Gulf States and others to 
chip in a lot more money.
    And now first, with respect to the IAEA, earlier last year 
world leaders from more than 50 countries convened in 
Washington and participated in a global dialogue to reinforce 
our commitment at the highest levels to securing nuclear 
materials. And in support of that initiative the Nuclear 
Security Summit released an action plan highlighting the IAEA's 
need for reliable and sufficient resources.
    As you know, each member state of the IAEA is assessed 
annual contributions from the IAEA's regular budget. The budget 
covers the salaries of agency personnel, operating costs, and 
some of its work in the areas of safeguards, nuclear security, 
and peaceful uses of nuclear technologies.
    However, the regular budget of the IAEA is woefully 
inadequate to cover all of the costs that are incurred by the 
agency's critical work. And with nuclear threats drawing, for 
good cause, increased global attention, members--member states, 
including the United States, are expecting more from the IAEA.
    This is for several reasons. First, there is an increasing 
number of nuclear facilities and an increasing amount of 
nuclear material around the world that needs safeguarding and 
monitoring. And January 16, 2017 marked the 1-year anniversary 
of the Iran deal's implementation, and as a critical part of 
this inspection regimen the IAEA inspectors have enhanced 
access to all declared Iranian nuclear sites, including uranium 
mines and mills, and continuous real-time surveillance of 
centrifuge manufacturing and storage locations.
    Our ability to monitor and detect illicit nuclear 
activities in Iran, including illicit trafficking, is largely 
based upon the will and support of the international community 
and the capabilities of the IAEA. So that is a--one of the main 
reasons why we should, you know, treat very carefully the 
budget of the IAEA.
    Secondly, since Fukushima the agency has expanded its work 
on nuclear safety, and that is a--you know, it is obviously a 
very important thing, and a disaster like that costs hundreds 
of billions, wherever it happens.
    And third, since September 11, 2001 the agency has 
increased its work to combat nuclear terrorism, including 
setting up a nuclear security fund, which is largely funded by 
voluntary contributions from member states like the United 
States. Virtually all the agency's technical assistance 
programs and projects are funded outside their regular budget.
    As a result, the agency relies heavily on member states' 
voluntary or extra-budgetary contributions. In fact, much of 
what the agency does is in direct support of the U.S. 
nonproliferation or other nuclear security objectives.
    And so we can specify how our voluntary contributions are 
to be spent, thus ensuring that it goes to support our priority 
objectives. For example, we currently use the voluntary 
contribution to fund projects of specific U.S. interest in the 
safeguards of nuclear security programs.
    Through the IAEA Peaceful Uses Initiative, our voluntary 
contributions promote the peaceful uses of nuclear energy in 
both power generation and other applications that include food 
security, water, cancer treatment, disease prevention, climate, 
and the oceans. The IAEA, for example, played a helpful role in 
the recent Ebola and Zika crises by helping use nuclear 
technology that enabled faster detection of both the viruses 
and quicker treatment. You know, their involvement there 
literally saved lives.
    And finally, I would like to draw your attention to an 
important opportunity to advance U.S. diplomatic goals in the 
Middle East through scientific engagement. The SESAME project, 
as I mentioned, is a major science facility under construction 
in Jordan that both promotes scientific excellence in the 
Middle East, an area that historically has led the world and 
has been lagging in recent centuries, and also in building 
scientific links that foster better understanding and culture 
of peace through collaboration.
    The U.S. support for SESAME would provide encouragement to 
all those who are struggling to collaborate across political, 
religious, and cultural divides in the Mid-East and throughout 
the world. At this turbulent time in the Mid-East, rapid 
action, even at a symbolic level, in support of SESAME would be 
enormously valuable in ensuring its success and in furthering 
the diplomatic interests of the United States.
    Thank you again. I yield back the balance of my time.
    Mr. Rogers. Thank you very much for your statement.
    Mr. Donovan, you are recognized. Your statement will be 
included in the record.
    Mrs. Lowey. Thank you.
    Mr. Rogers. We hope that you can keep your remarks under 5 
minutes.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                          Thursday, March 16, 2017.

                                WITNESS

HON. DANIEL M. DONOVAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK

                    Opening Statement of Mr. Donovan

    Mr. Donovan. I certainly will, Chairman.
    Thank you for the opportunity to testify before you.
    Ranking Member Lowey, my colleague from New York, thank 
you.
    The United States is a leader in diplomacy and development, 
and that leadership helps keep Americans safe. I believe the 
commitment to global health, including our work to end 
preventable child and maternal deaths and combatting wildlife 
trafficking, is critical not only to the survival of millions 
of mothers and children around the world but also to the safety 
of our nation.
    It is to the thanks of the United States Congress, and in 
particular this subcommittee, that we have been a world leader 
in saving children's and mothers' lives for the past several 
decades. Since 1990 an estimated 100 million children have been 
saved due in no small part to the United States. In addition, 
maternal mortality rates have dropped 44 percent.
    With simple, cost-saving interventions like improving 
access to skilled assisted deliveries of babies; growth 
monitoring; immunizations; treatment for diarrhea, pneumonia, 
and malaria; and clean water and sanitation, millions of 
children have survived and been saved from tragic death.
    Vaccines are one of these key interventions where the 
United States' leadership has dramatically changed the 
landscape of child survival. Our support for measles and polio 
eradication efforts have rapidly reduced child deaths in even 
the most report places on the planet.
    Additionally, our support of Gavi, the Vaccine Alliance, 
has helped to immunize over half a billion children, which will 
save over 6 million lives. It is important for the United 
States to uphold our 2015 commitment to Gavi to help immunize 
an additional 300 million children, which will save 5 million 
more lives.
    This commitment includes getting vaccines to the poorest 
countries to drive down some of the leading killers of children 
globally: pneumonia and diarrhea. Truly, no child should die 
from something completely preventable like diarrhea.
    I also believe that nutrition programs which are funded by 
the global health account, Food for Peace and Feed the Future, 
are also key to child survival. The global health programs 
support simple but effective interventions, such as vitamin A, 
iron, and other micronutrient supplementation; food 
fortification; promotion of good nutrition and hygiene 
practices for the first 6 months of life; and treatment for 
severe, acute malnutrition. This is particularly important for 
a child's first 1,000 days of life, where chronic malnutrition 
can lead to physical and cognitive stunting that has 
irreversible lifetime effects.
    In 2015 alone 18 million children under 5 years of age had 
their nutritional intake improved thanks to the United States. 
We take pride in this work because children who get the right 
nutrition early are 10 times more likely to overcome life-
threatening childhood diseases, such as diarrhea and pneumonia, 
and they are more likely to achieve higher levels of education.
    Growing evidence has also suggested a strong positive 
correlation between nutrition and lifetime earnings. Think of 
the impact: for every dollar that we invest in nutrition we see 
about a $16 return.
    The good news is that we have a lot of success and have 
seen great improvements in child survival worldwide. Mortality 
for children under 5 years old has dropped by over 50 percent 
from where it was 30 years ago.
    The bad news is that millions of children still bear the 
burden of poor developmental outcomes. An estimated 66 percent 
of children under 5 years old in sub-Saharan Africa and 43 
percent of children in other low-income areas of the world are 
at risk of growing up with stunted bodies and brains.
    I am confident that expanding existing maternal and child 
health and nutritional services to include interventions that 
promote nurturing care, known as early childhood development, 
could be an important way to ensure the best outcomes for young 
children.
    This integration of early childhood development into 
maternal and child health could be used as a resource for the 
United States Agency for International Development going 
forward, as doing so would magnify the already impressive 
impact of our U.S. maternal, child health, and nutrition 
programs, and ensure that children not only live to see their 
next birthday, but thrive.
    In addition to that work and investment shown in maternal 
and child health, the United States has been leading the effort 
to combat wildlife poaching and trafficking. The illegal trade 
of wildlife products like elephant tusks, ivory horns, and 
shark fins is worth $8 billion to $10 billion annually.
    Big profits make it difficult to track the trade and has 
attracted criminal and terrorist groups as a way to fund their 
heinous activities. I believe it is imperative that we fully 
fund the wildlife trafficking program at the State Department 
and USAID.
    Again, I thank you very much for this opportunity to 
testify. I sincerely and respectfully request that the 
committee fully fund the programs aimed at global maternal and 
child health and nutrition, along with combatting wildlife 
trafficking.
    Thank you so very, very much for your attention.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Mr. Rogers. Thank you for your statement.
    Mr. Donovan. Thank you, sir.
    Mrs. Lowey. And thank you for your statement.
    Mr. Donovan. Thank you.
    Mr. Rogers. Mr. Cartwright, you are recognized, and we will 
insert your written statement in the record. We invite you to 
summarize it for us. Thank you.
                              ----------                              

                                          Thursday, March 16, 2017.

                                WITNESS

HON. MATT CARTWRIGHT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA

                  Opening Statement of Mr. Cartwright

    Mr. Cartwright. Thank you, Mr. Chairman, members of the 
committee. It is a pleasure to be here with you today and it is 
an honor to join the House Committee on Appropriations. Look 
forward to serving with both of you.
    Two broad policy issues I would like to discuss this 
morning: Number one, an unceasing chorus in this country 
continues to cast doubt on the well-documented and well-settled 
science of climate change. And secondly, many of our citizens 
and leaders dramatically overestimate how much our country 
spends on foreign aid and underestimate both the benefits and 
the cost savings from our overseas investments.
    I am here to discuss both our pursuit of preserving the 
environment and the value of our international aid programs.
    First, I urge this committee to support funding for 
international activities that seek to fight climate change. 
Outside of this country, no significant group doubts the 
science of climate change. The U.S. must take responsibility 
for our outsized historic emissions and take a leadership role 
internationally.
    Our nation's top military leaders have long held that 
climate change is a threat multiplier, making the work our 
military carries out around the world much more difficult. When 
more frequent and severe storms devastate other countries, when 
droughts and resource shortages destabilize already-fragile 
states, when mass migration spurred by the effects of climate 
change causes rapid urbanization and economic displacement that 
benefits extremist groups, the U.S. military is affected, and 
they have to be. They are there to respond.
    Given these realities, nearly the entire international 
community is rising to the challenge of combatting climate 
change. Countries around the world are taking steps to curb 
their emissions and shift to green energy alternatives: 132 
nations and counting ratified their Paris Agreements, including 
the U.S., and we need to honor our commitment.
    It is in that spirit that I urge you fully to fund the 
Green Climate Fund, which supports the efforts of developing 
countries in curbing their emissions. The U.S. has pledged $3 
billion of the fund's current $100 billion budget. I request 
that we honor that pledge--a pledge that was instrumental in 
leading many other countries to pledge. And I think we need to 
take our natural leadership role in that fight.
    I am also here today to urge you fully to fund U.S. 
international development efforts, which have long enjoyed 
strong bipartisan support. It is our moral imperative and it is 
representative of our American values to help our neighbors.
    Just last week the U.N. reported the world is currently 
experiencing, quote, ``the largest humanitarian crisis in the 
history of the United Nations,'' unquote, with 20 million 
people in Yemen, South Sudan, Somalia, and Nigeria facing 
starvation and famine. This is not the time to cut 
international aid.
    Furthermore, U.S. foreign aid is not merely philanthropic. 
It is smart strategy. It keeps our nation safe and stimulates 
the U.S. economy.
    As globalization continues to expand, our nation is 
increasingly affected by the activities of other countries. We 
saw this when American citizens were infected with Ebola and 
Zika, showing how our health is intertwined with the health of 
other nations.
    We see time and again our own economy improving as the 
markets of other nations improve, creating more and stronger 
customers for our exports. We also know that terrorist 
organizations often target the impoverished for new recruits to 
their cause, and foreign aid can build good will and reduce the 
need for military intervention.
    U.S. foreign aid helps the U.S. as much as it helps the 
nation it serves. And it is the right thing to do.
    I, therefore, request that the Millennium Challenge 
Corporation, the MCC, and the U.S. Agency for International 
Development, the USAID, are given full funding in fiscal year 
2018 to enable them to continue their important development 
work in the name of the United States.
    And within USAID, but with its own budget authority, I 
specifically request that the Development Credit Authority be 
fully funded at $10 million, which will not only allow it to 
continue leveraging private sector resources in record numbers, 
but also to increase its portfolio management and support banks 
in utilizing their guarantees at 100 percent.
    I thank you again for your time today, the opportunity to 
share my requests, and I do submit my written testimony for the 
record. Thank you.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    Mr. Rogers. It will be entered in the record. Thank you for 
your statement. Welcome to the Committee.
    Mr. Cartwright. Thank you.
    Mrs. Lowey. And I thank you. Good to see you.
    Mr. Rogers. Thank you very much.
    Mr. Espaillat.
                              ----------                              

                                          Thursday, March 16, 2017.

                                WITNESS

HON. ADRIANO ESPAILLAT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK

                   Opening Statement of Mr. Espaillat

    Mr. Espaillat. Thank you.
    Mr. Rogers. Your written statement will be entered in the 
record.
    Mr. Espaillat. Thank you.
    Mr. Rogers. We advise you to summarize it for us in less 
than 5 minutes.
    Mr. Espaillat. Thank you so much.
    Chairman Rogers and Ranking Member Lowey, thank you for 
allowing me to testify during today's subcommittee hearing to 
lay out my priorities as they relate to state and foreign 
operations. It is specifically crucial that I raise my voice, 
given President Donald Trump's release of the skinny budget, as 
they call it, which will cut the State Department by $10.8 
billion, or 29 percent.
    This heartless budget prioritizes building a border wall 
over diplomacy and housing the poor. As I hope you agree, 
making an investment abroad is not about charity; it is about 
keeping violence and hatred from America's shores.
    As the first Dominican-American to serve in Congress and as 
a member of the Western Hemisphere Subcommittee on the Foreign 
Affairs Committee, I have firsthand exposure and insight into 
the importance of maintaining our foreign aid commitments in 
the region. This is in the interest of helping our brothers and 
sisters in Latin America and the Caribbean, and in our best 
interest to protect our security and improve our economic 
relations with these countries.
    Trump's budget request is cold. It is a coldhearted budget, 
stripping funding from longstanding federal programs that 
assist the poor, working families; funding for scientific 
research; and aid to America's allies abroad.
    I hope the committee rejects this budget and will instead 
prioritize our commitments abroad, including investing in 
emergency preparedness in the Caribbean, the U.S. strategy for 
engagement in Central America, funding for the Caribbean Basin 
Security Initiative, and investing in energy potential in the 
Caribbean, and increasing funding for the United States Agency 
for International Development, the USAID.
    The U.S. strategic--strategy for engagement in Central 
America is an important program. Security assistance to these 
countries in Central America, particularly in the Northern 
Triangle, which includes El Salvador, Guatemala, and Honduras, 
is specifically important.
    These countries make up a group of countries that 
constitute the deadliest region in the world. El Salvador had 
over 100 homicides per 100,000 people in 2015, more than 24 
times higher than here in the United States.
    This sort of extreme violence is at the root of women and 
children risking everything for the prospect of safety. These 
immigrants are refugees. Women and children from the Northern 
Triangle are coming to the United States for safety.
    This is a matter of human rights and dignity.
    Our continued assistance would support the U.S. strategy of 
engagement in Central America, a program that promotes good 
governance, economic advancement, and improved regional 
security. This is essential aid, which would help address the 
root causes that force too many unaccompanied children to flee 
their homes to find refuge in the United States.
    I urge the Committee to increase funding to support the 
U.S. strategy for engagement in Central America to aid the 
Northern Triangle in addressing the underlying causes of 
migration from El Salvador, Guatemala, and Honduras.
    Emergency preparedness in the Caribbean: As we have seen, 
natural disasters, including earthquakes and hurricanes, have 
become more common and more severe in Latin America, but 
specifically in the Caribbean. By increasing our support for 
emergency preparedness and investing in building local capacity 
to respond to these disasters we can help to improve the 
resiliency in managing natural disasters.
    This aid can greatly improve the lives of those living in 
these countries and will also lessen the burden on us when 
responding to natural disasters. I urge the committee to 
increase funding for emergency preparedness and capacity-
building in the Caribbean Basin Security.
    The Caribbean Basin Security Initiative is particularly 
susceptible to drug trade, given its location between drug-
producing countries in South America and the United States. The 
Caribbean Basin Security Initiative has been instrumental in 
providing the funding needed to help combat crime and violence.
    Per the Congressional Research Service, crime and violence 
is on the rise in the Caribbean. CRS reports that homicide 
rates in several Caribbean countries have increased in recent 
years because of gangs and organized crime, competition between 
drug trafficking organizations, and the availability of 
firearms.
    I urge the Committee to provide the same level of funding 
for CBSI that was included in the 2016 budget through the 
omnibus appropriation bills.
    Investing in energy potential in the Caribbean: According 
to a study from the World Bank, an average cost of electricity 
in the Caribbean is four times higher than in rich nations such 
as the United States. High energy costs are a financial 
hardship for people in the Caribbean and are also one of the 
blockages from--for unleashing economic growth and prosperity 
in the region.
    Another report shows that the cost of generating 
electricity in the Caribbean is higher than much of the rest of 
the world, which can impede direct investment. In Jamaica 
consumers pay 30 cents per kilowatt an hour for electricity; in 
Puerto Rico the figure stands at 25 to 30 cents per kilowatt-
hours. In contrast, the average American household pays 10.13 
cents per kilowatt-hours, according to the U.S. Energy 
Information Administration.
    Investing in new sources of energy, including renewable 
energy projects such as wind and solar projects in the 
Caribbean, would mean more clean energy jobs, updated 
infrastructure, and a more booming economy. That is why I urge 
the Appropriations Committee to increase our foreign direct 
investment in the Caribbean and to invest in Caribbean's energy 
needs.
    The United States Agency of International Development, the 
USAID: Finally, I would like to discuss the importance of the 
United States Agency for International Development and the need 
to continue funding its vital programs. The USAID is a premier 
facet of our foreign diplomacy and its engagement has brought 
us closer with our neighbors in Central and South America 
through increasing economic prosperity, promoting good 
governance, and engaging in clean energy development in the 
face of climate change.
    Our assistance to and cooperating with these countries has 
proven to be a positive, demonstrable effects. For example, in 
the last few years Panama has changed from a country receiving 
development aid to a country that is now providing aid to other 
Central American countries.
    Continued investment through USAID will help to make 
countries become more sustainable and prosperous, which will 
continue to improve the region in magnitudes beyond our current 
aid. That is why I am asking that you support USAID and 
increase its funding for programs in Central America.
    Thank you for the opportunity to offer my concerns and 
priorities to this Committee. Thank you.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Rogers. Mr. Espaillat, thank you very much.
    Mr. Espaillat. Thank you so much.
    Mrs. Lowey. Thank you.
    Mr. Rogers. Mr. Kennedy is now recognized. Your written 
statement will be inserted in the record. You are invited to 
summarize it for us.
                              ----------                              

                                          Thursday, March 16, 2017.

                                WITNESS

HON. JOSEPH P. KENNEDY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS

                    Opening Statement of Mr. Kennedy

    Mr. Kennedy. Thank you, Mr. Chairman.
    Mr. Rogers. In less than 5 minutes?
    Mr. Kennedy. Less than 5 minutes. I will be quick.
    Thank you, Mr. Chairman, Madam Ranking Member, and members 
of the Committee. I want to thank you for allowing me to 
testify in support of the Peace Corps, a program that is not 
only near and dear to my heart but that safeguards our nation's 
core values of democracy and human rights.
    With 7,200 Peace Corps volunteers currently serving in 63 
countries, their impact spans training communities in critical 
areas of need, combatting HIV and AIDS, to facilitating girls' 
and women's empowerment through education and economic 
independence.
    But more than that, those volunteers play a--also play a 
critical role in our national security. As 121 retired three-
and four-star generals recently wrote in congressional 
leadership, quote, ``Peace Corps and other development agencies 
are critical to preventing conflict and reducing the need to 
put our men and women in uniform in harm's way.''
    Yet, despite the Peace Corps' success, overwhelming support 
from our military leaders, and strong, consistent support from 
Congress, the agency remains as underutilized as it is 
extremely effective. Excuse me, nearly 24,000 Americans applied 
to the agency in fiscal year 2016, but funding only allowed for 
3,800 volunteer openings. As retired General Stanley McChrystal 
has said, quote, ``This gaps represents democratic energy 
wasted and a generation of patriotism needlessly squandered.''
    Even with that broad support, the Peace Corps represents 
only 0.01 percent of our Federal budget and 0.7 percent of our 
international affairs budget. Simply put, America increasingly 
turns down the opportunity to leverage this singular resource.
    The number of currently serving Peace Corps volunteers has 
steadily declined for years. At a peak of 15,000 volunteers in 
1967, the agency has failed to reach 10,000 volunteers since 
1969.
    That is not because the agency or its model doesn't work. 
It perhaps works better than any other.
    The shortfall in volunteers is because funding allows the 
agency to offer just one in six applicants an opening. Every 
year we turn away the opportunity for a young American to 
develop--to give a group of girls the gift of reading. Every 
year we turn away the opportunity of a retired American to 
build a maternity ward. Every year we turn away the opportunity 
of a small, remote village in the Ukraine the opportunity to 
meet a black American. Or we turn away the opportunity for a 
group of university students in China the opportunity to know a 
Muslim American.
    Since we cannot hear their stories I will briefly summarize 
mine.
    About a year into my own service in the Dominican Republic 
I was on my way back from visiting my host family into the 
Peace Corp office in Santo Domingo on a bus that was 
essentially a large van meant for about eight with about 20 
people hanging out of it. And I was in the second-to-last row 
of a bench seat. There was a group behind me.
    I had my backpack on my lap and I got tapped on my 
shoulder. And I turned around and this gentleman, Dominican, 
older Dominican, asked me, ``Cuerpo de Paz,'' wondering if I 
was a Peace Corps volunteer in Spanish.
    And I said, ``Yes. How did you know?''
    And he looked at me like, you don't blend in. You can't 
possibly think you blend in.
    Fair enough.
    He went on, Chairman, to thank me not for the work that I 
was doing but for the work that another volunteer had done 
decades before when he was a little boy in a village outside of 
Santo Domingo that didn't have access to running water. And 
that young American had come in and put in a water pipe to 
bring clean water to their village.
    That older gentleman never asked my name, never asked where 
I was from, never asked what I was doing. He just said that he 
never got the chance to thank that other volunteer all those 
decades before.
    A few moments later the bus stopped, he got off. I have 
never seen him again.
    But that is what this organization does, and that is what 
service overseas or at home, I believe, is all about: not any 
one person's accomplishments, but the way even the smallest act 
of assistance, cooperation, and friendship reverberates across 
time, across distance, across language, generations, and, of 
course, borders.
    And that is what Peace Corps does every single day. And 
that is why the only discussions about its funding should focus 
on increasing investment and support for its staff and its 
volunteers.
    I thank you for your consideration.
    [The information follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    Mr. Rogers. Powerful testimony.
    Mr. Kennedy. Thank you, sir.
    Mr. Rogers. Thank you very much. Thank you for you and your 
family's profound commitment to the Peace Corps.
    Mr. Kennedy. Appreciate that, sir. Thank you.
    Mrs. Lowey. I also want to thank you. Sam Farr used to tap 
me on the shoulder probably 10 times a day: Peace Corps, Peace 
Corps, Peace Corps. So I am very pleased that you are carrying 
the mantle, and we are great supporters and as best as we can 
fund it, I'm sure we will. And we need to increase the overall 
account.
    Mr. Kennedy. Grateful for that. I could never, despite my 
deepest attempts, never imitate Sam Farr's tireless advocacy 
for the Peace Corps. But by extension----
    Mrs. Lowey. You do a good job.
    Mr. Kennedy [continuing]. I will tap you 10 times on the 
shoulder.
    Mrs. Lowey. You do a good job.
    Mr. Kennedy. Thank you, Chairman.
    Mr. Rogers. Mr. Schiff, your written statement will be 
inserted in the record. You are invited to summarize it for us.
                              ----------                              --
--------

                                          Thursday, March 16, 2017.

                                WITNESS

HON. ADAM B. SCHIFF, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

                    Opening Statement of Mr. Schiff

    Mr. Schiff. Thank you, Mr. Chairman, Ranking Member Lowey. 
My first request is please never have me speak after Joe 
Kennedy again. [Laughter.]
    But I guess it will be necessary today.
    Mrs. Lowey. We see you on CNN all the time, so you do just 
fine.
    Mr. Schiff. Madam Chair, you should do what my wife does: 
just hit ``mute.''
    Having served on the Subcommittee for 8 years, though I am 
now on leave, I know the importance of the work that you do 
very well. And now more than ever, American interests are at 
stake as we confront unprecedented instability and growing 
humanitarian crises around the world.
    Congress must invest in our national security, which 
includes development and diplomacy programs, alongside a strong 
defense.
    While I will extend and expand on my requests to the 
subcommittee in written form, today I want to highlight just 
two matters that I hope the subcommittee will prioritize in the 
fiscal year 2018 bill. The first involves support for Armenia 
and the people of Artsakh, or Nagorno-Karabakh; and the second 
involves the Broadcasting Board of Governors, the civilian arm 
of the U.S. international media.
    First, with respect to Armenia and Artsakh, I urge the 
Subcommittee to support economic development, military parity, 
and refugee settlement in our important regional partner, 
Armenia. I further ask that the subcommittee prioritize 
security and development in Nagorno-Karabakh, which faces 
imminent threat from Azerbaijan.
    Among the steps that I spell out in greater detail in my 
written testimony, I ask that the subcommittee provide 
humanitarian support for Artsakh in addition to demining 
activities currently underway with USAID's support. I would 
further request that the Committee include support for the 
implementation of monitoring technologies along the line of 
contact, which I believe would help deter Azeri provocations 
that could easily spiral into a larger conflict.
    I finally request the Committee's support of Armenia's 
continued development as an important regional partner who is 
taking on peacekeeping missions around the world and resettled 
thousands of refugees from Syria and Iraq.
    Second, the Broadcasting Board of Governors, which I was 
concerned to see zeroed out in the President's budget today: I 
want to highlight the importance of fully funding the 
Broadcasting Board of Governors and specifically prioritizing 
counter-propaganda broadcasting.
    Russia, as you know, is waging a disinformation campaign to 
undermine Western democratic states and values and subvert the 
NATO alliance. In addition to invading Georgia and Ukraine and 
bombing civilians in Syria, Russia has pumped tens of millions 
of dollars into disinformation and propaganda targeting the 
United States and Europe.
    Russia seeks to create chaos and division in the United 
States and E.U. through disinformation campaigns designed to 
distract us, divide us, and ultimately paralyze us so Russia 
can achieve its foreign policy goals of fracturing the U.S.-led 
security order. By providing an alternate to disinformation and 
extremist propaganda, the Broadcasting Board of Governors is at 
the forefront of combatting the weaponization of information 
and disinformation that we see on a global stage.
    Through the Voice of America and Radio Liberty the BBG 
recently launched Current Time, a 24/7 Russian language digital 
television network. So Current Time will be a major determiner 
in the outcome of the ongoing struggle between liberal 
democracy and the autocratic model favored by Vladimir Putin.
    I urge the Committee to prioritize funding for BBG with 
these purposes and to provide resources to expand on the 
efforts already underway. For instance, Russia's highly 
successful propaganda efforts are built in large part on 
wrapping news content around entertainment. Our efforts will 
need a greater emphasis on providing content that can be 
competitive with slickly produced Russian broadcasts.
    I appreciate your consideration of these requests and look 
forward to following up to further spell out programs that I 
believe should be prioritized as we undertake the fiscal year 
2018 funding cycle, and I thank you very much.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
   
    Mr. Rogers. Thank you for the very good testimony.
    Mrs. Lowey.
    Mrs. Lowey. I want to thank you. And as a strong supporter 
of the BBG and other similar programs, many of us have had 
questions about their effectiveness, but we continue to fund it 
and we continue to try to send a message that we look forward 
to some changes so we can be more effective. We welcome your 
support and your input.
    Mr. Schiff. I thank you, and I think you are absolutely 
right to question how efficacious these efforts have been in 
the past. I think the answer is to figure out, if they haven't 
been, how do we retool in the modern information and propaganda 
age, rather than deciding that they haven't been successful and 
therefore we are not going to try. I think we really have to 
combat these efforts.
    Mrs. Lowey. I agree. We agree.
    Mr. Rogers. We are working on visiting BBG here in the next 
couple weeks. I don't think we have the time set yet, but we 
want to go down there and soak up a lot of information and 
share some views.
    But I agree with you, in this new age in which we find 
ourselves, a communications age, broadcasting is not the most 
effective way to get to someone. So the Internet, cable, 
cyberspace is the new battleground.
    Mr. Schiff. Exactly right.
    Mr. Rogers. Thank you.
    Mr. Schiff. Thank you, Mr. Chairman, ranking member.
    Mrs. Lowey. Thank you very much.
    Mr. Schiff. Thank you.
    Mrs. Lowey. What time are you on tonight?
    Mr. Schiff. Hopefully not at all. [Laughter.]
    Mr. Rogers. I think that is all of the scheduled witnesses 
that we have.
    Is there anyone waiting to testify?
    Anything further, Mrs. Lowey?
    Mrs. Lowey. No. Now we just have to get our numbers out. We 
depend on your leadership, your leadership and the White House, 
so thank you.
    Mr. Rogers. Thank you.
    Hearing is adjourned.
    [The following statements were submitted for the record:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                          [all]
                      
 
 
</pre></body></html>
